OFFICE OF INSPECTOR GENERAL



AUDIT OF USAID/MALI’S
EFFECTIVENESS IN
COMPLYING WITH TIAHRT
VOLUNTARY FAMILY
PLANNING REQUIREMENTS
AUDIT REPORT NO. 7-688-07-003-P
August 14, 2007




Dakar, Senegal

Office of Inspector General


August 14, 2007

MEMORANDUM

TO:                  USAID/Mali Mission Director, Alexander Newton

FROM:                Regional Inspector General/Dakar, Nancy Toolan /s/

SUBJECT:             Audit of USAID/Mali’s Effectiveness in Complying with Tiahrt Voluntary Family
                     Planning Requirements (Audit Report No. 7-688-07-003-P)

This memorandum transmits our final report on the subject audit. In finalizing this report, we

considered management’s comments on our draft report and included them in Appendix II. 


This report contains six recommendations with which you concurred in your response to the

draft report. Final action has been taken on all the recommendations and no further action is 

required of the Mission.


I appreciate the cooperation and courtesies extended to the members of our audit team during 

this audit. 





U.S. Agency for International Development
Ngor Diarama, Petit Ngor, BP 49
Dakar, Senegal
www.usaid.gov
CONTENTS

Summary of Results ....................................................................................................... 1 


Background ..................................................................................................................... 3 


Audit Objective .................................................................................................................. 4 


Audit Findings ................................................................................................................. 6 


Has USAID/Mali effectively implemented controls and 

procedures to ensure that USAID/Mali and its 

implementing partners are complying with the Tiahrt 

Amendment requirements?............................................................................................... 6 


     Partner Staff Need Better
     Understanding of Tiahrt Requirements ....................................................................... 9 


     Agreements Need to Include 

     Tiahrt Provision ......................................................................................................... 11 


     Monitoring of Tiahrt Compliance
     Needs Improvement.................................................................................................. 14 


     Procedures for Reporting Violations 

     Need to Be Implemented ......................................................................................... 16 


Evaluation of Management Comments ....................................................................... 18 


Appendix I – Scope and Methodology ........................................................................ 21 


Appendix II – Management Comments ....................................................................... 23 

SUMMARY OF RESULTS

The Regional Inspector General/Dakar conducted this audit as part of a multicountry
audit executed by the Office of Inspector General. The objective of the audit was to
determine if USAID/Mali has effectively implemented controls and procedures to ensure
that USAID/Mali and its implementing partners are complying with the Tiahrt Amendment
requirements (see pages 4-5).

Although we found no evidence of violations of the Tiahrt Amendment, we concluded
that the Mission has not effectively implemented controls and procedures to the fullest
extent possible to ensure that USAID/Mali and its implementing partners are complying
with the Tiahrt Amendment requirements. This was determined by establishing whether
USAID/Mali has: (1) violated the Amendment; (2) communicated the Amendment’s
requirements to family planning partners; (3) implemented controls and procedures to
improve compliance in response to the problems that arose in Guatemala; and (4)
implemented procedures to investigate, remedy, and report violations (see pages 4-5).

We found that for the items tested during our fieldwork, neither USAID/Mali nor its
partners had violated the Tiahrt amendment. USAID/Mali and its partners did not impose
prohibited numerical targets or quotas that established a predetermined number of
family planning clients (acceptors) to be seen or of contraceptive products to be
dispensed. Also, neither USAID/Mali nor its partners offered incentives or financial
reward to program personnel for achieving targets or quotas, or to individuals in
exchange for becoming a family planning acceptor. In addition, individuals who decided
not to use family planning services were not denied rights or benefits. Also, clients were
given comprehensible information on the benefits and risks of the family planning
method chosen, and experimental methods were not provided.                 All acceptors
interviewed said that they had chosen their family planning method according to their
own free will (see pages 6-8).

The Mission communicated the Tiahrt Amendment requirements to the partners and
provided training in those requirements. However, not all of its partners’ staff
understood all five of the Tiahrt Amendment’s requirements. Without a better
understanding of the Tiahrt Amendment requirements, partner staff may be unable to
conduct sufficient monitoring for compliance or identify potential violations. In addition,
although instructed by USAID headquarters to amend their agreements to include the
required Tiahrt Amendment provision, USAID/Mali did not amend its agreements until
notified of this audit.     Additionally, the Mission had not verified whether the
subagreements of its partners included the required provision (see pages 8-12).

USAID/Mali has not implemented controls and procedures for improving compliance with
the Tiahrt Amendment in response to the problems that arose in Guatemala, because it
was not aware of the Guatemala violations. The Mission, however, did take steps to
implement controls to improve compliance that addressed some of the weaknesses
found in Guatemala. Nevertheless, there were areas in the Mission’s monitoring of
Tiahrt compliance that could be improved (see pages 13-16). Lastly, USAID/Mali has
not implemented procedures to investigate, remedy, and report Tiahrt Amendment
violations, because it was not instructed to do so (see pages 16-17).




                                                                                         1
This audit report contains six recommendations addressing these issues to help
USAID/Mali and its partners to comply better with Tiahrt Amendment requirements (see
pages 11, 12, 16, and 17). USAID/Mali agreed with the recommendations, final action
has been taken by the Mission, and the recommendations are considered closed upon
issuance of this report (see pages 18-20).




                                                                                  2
BACKGROUND

USAID’s assistance to family planning programs is guided by the principles of
voluntarism and informed choice. These principles reflect basic American values and
are included in legislation, program guidelines, and regulations.

In October 1998, under the FY 1999 Appropriations Act, Congress enacted an
amendment initiated by Representative Todd Tiahrt of Kansas, reaffirming and further
elaborating on standards for voluntary family planning service delivery projects to protect
family planning "acceptors," the individual clients receiving services. Under the Tiahrt
Amendment, family planning projects must comply with the following requirements:

   1. 	Service providers or referral agents in the project shall not implement or be
       subject to quotas, or other numerical targets, of total number of births, number of
       family planning acceptors, or acceptors of a particular method of family planning.
       (This provision shall not be construed to include the use of quantitative estimates
       or indicators for budgeting and planning purposes).

   2. 	 The project shall not include payment of incentives, bribes, gratuities, or financial
        reward to (A) an individual in exchange for becoming a family planning acceptor,
        or (B) program personnel for achieving a numerical target or quota of total
        number of births, number of family planning acceptors, or acceptors of a
        particular method of family planning.

   3. 	 The project shall not deny any right or benefit, including the right of access to
        participate in any program of general welfare or the right of access to health care,
        as a consequence of any individual's decision not to accept family planning
        services.

   4. 	 The project shall provide family planning acceptors comprehensible information
        on the health benefits and risks of the method chosen, including those conditions
        that might render the use of the method inadvisable and those adverse side
        effects known to be consequent to the use of the method.

   5. 	 The project shall ensure that experimental contraceptive drugs and devices and
        medical procedures are provided only in the context of a scientific study in which
        participants are advised of potential risks and benefits.

Additionally, no later than 60 days after the USAID Administrator determines that a
single violation of requirements 1, 2, 3, or 5 has occurred, or, in the case of 4, a pattern
or practice of violations has occurred, the Administrator must submit a report to
Congress describing the violation and the corrective actions taken to address it.

Mali, the largest country in West Africa, has approximately 12 million inhabitants. Low
contraceptive use rate, high fertility, poor birth spacing and rapid population growth are
obstacles to the national goals of poverty reduction and economic growth. In response,
USAID/Mali has joined with the Ministry of Health and other partners to promote and
strengthen the availability of and access to quality family planning services in Mali. The
Mali Repositioning Family Planning Initiative, launched in 2004 and implemented within


                                                                                           3
the context of the Mission’s High Impact Health Services strategic framework, has
resulted in an increase in contraceptive prevalence of more than 2 percentage points
and an almost 200 percent increase in the number of new family planning acceptors.

The success of the family planning program in Mali has been heavily reliant on the
motivation and competency of health providers and the use of trained community health
volunteers, who operate as extensions of the community health clinics to provide
contraceptives and promote integrated essential health practices in the community. The
use of community health volunteers has been identified as an effective system for
implementing health activities at the community level in Mali, where the availability of
quality family planning services and commodities in Mali is often limited.

During fiscal year (FY) 2006, USAID/Mali’s family planning program was implemented by
11 implementing partners--4 bilateral partners and 7 centrally funded partners. Five of
the partners provided direct family planning services. They included three bilateral
partners--Care, Population Services International (PSI), and the Ministry of Health
(MOH)--and two centrally funded partners--World Learning (implemented through two
local nongovernmental organizations (NGOs), Groupe Pivot/Santé Population and
Association de Soutien du Développement des Activités de Population (ASDAP)), and
Save the Children. The other six partners provided technical assistance to MOH and to
NGOs to improve access to quality family planning services and provided information
and education related to family planning.

Our review focused on the 5 partners that provided directly family planning services. In
FY 2006, USAID/Mali programmed $7.5 million in funding for the three bilateral partners
we reviewed, which included $2.9 million for population-related activities. In addition,
USAID/Mali contributed $240,000 in funding to the two centrally funded partners
included in our review.


AUDIT OBJECTIVE
In response to the discovery of non-compliance with the Tiahrt Amendment in
Guatemala and congressional interest, the Office of Inspector General is conducting a
multicountry audit to assess USAID’s compliance with the family planning-related
requirements of the Tiahrt Amendment. To support this effort, the Regional Inspector
General/Dakar performed this audit to answer the following question:

   •	 Has USAID/Mali effectively implemented controls and procedures to ensure that
      USAID/Mali and its implementing partners are complying with the Tiahrt
      Amendment requirements?

In order to answer the audit objective, the audit focused on the following questions:

   1. 	 Have USAID/Mali or its partners violated the Amendment?

   2. 	Has USAID/Mali communicated the Amendment’s requirements to its family
       planning partners?




                                                                                        4
   3. 	Has USAID/Mali, in response to the problems that arose in Guatemala,
       implemented controls and procedures to improve compliance?

   4. 	Has USAID/Mali implemented procedures to investigate, remedy, and report
       violations?

Appendix I contains a discussion of the audit's scope and methodology.




                                                                             5
AUDIT FINDINGS

Neither USAID/Mali nor its partners had violated the Tiahrt amendment for the items
tested during our fieldwork. Also, the Mission had communicated the Tiahrt Amendment
requirements to its partners. However, we concluded that the Mission has not effectively
implemented controls and procedures to the fullest extent possible to ensure that
USAID/Mali and its implementing partners are complying with the Tiahrt Amendment
requirements. This conclusion is based on audit work that showed the following.

   •	 Not all of USAID/Mali’s partners’ staff understood all five of the Amendment’s
      requirements despite training and follow-up communications provided by the
      Mission.

   •	 USAID/Mali had not amended its partner agreements to include the required
      Tiahrt Amendment provision when instructed by USAID headquarters but only
      after notification of this audit. Furthermore, the Mission had not verified whether
      the subagreements of its partners included the required provision.

   •	 USAID/Mali has not implemented controls and procedures to improve
      compliance with the Tiahrt Amendment in response to the problems that arose in
      Guatemala, because it was not aware of the Guatemala violations. The Mission,
      however, did take steps to implement controls to improve compliance that
      addressed some of the weaknesses found in Guatemala, but the Mission’s
      monitoring of Tiahrt compliance could be improved.

   •	 USAID/Mali has not implemented procedures to investigate, remedy, and report
      Tiahrt Amendment violations.

The following sections contain a discussion of the actions and efforts by USAID/Mali and
its partners to comply with Tiahrt Amendment requirements and of the weaknesses
found during the audit.


1. Have USAID/Mali or its partners violated the Amendment?
USAID/Mali and its partners have not violated the Tiahrt Amendment for the items tested
during our audit fieldwork. Our interviews with Mission and partner staff, reviews of
relevant documentation, and interviews with service providers, community health
volunteers, and acceptors (which covered the Amendment’s five requirements regarding
targets and quotas, incentives and bribes, denial of rights, comprehensible information,
and experimental methods), did not reveal evidence of any violations.

Regarding the requirement pertaining to targets and quotas, partner staff interviewed
stated that they had no prohibited targets or quotas that they needed to achieve, and our
review of employment contracts did not indicate any. Of the 16 service providers
interviewed, 8 testified to having goals or targets that they needed to achieve as part of
their health clinic’s contribution to the Ministry of Health’s (MOH) overall objective of
increasing the contraceptive prevalence rate in Mali. However, none of the service


                                                                                        6
providers indicated that there were penalties for not achieving the goals, and no
providers were required to see a predetermined number of acceptors or dispense a
predetermined number of contraceptive methods. Additionally, none of the community
health volunteers indicated that they had targets or quotas to achieve.

In terms of the requirement related to incentives and bribes, of the 22 acceptors
interviewed, none testified to having received incentives, bribes, gratuities, or financial
reward in exchange for becoming a family planning acceptor. None of the service
providers and community health volunteers interviewed said they have received any
monetary payment aside from their salary. Through interviews with partners and review
of employment contracts and financial documentation, we found no indication of any
prohibited bonuses or incentives being paid. Community health volunteers received
small commissions from the sale of contraceptives to acceptors, which are built into the
fixed selling prices regulated by the Government of Mali. We found no indication
acceptors were being coerced or influenced to buy a particular contraceptive method
over another method. The volunteers also mentioned that there was no motivation for
them to sell one method over another, because acceptors chose the contraceptive
method they desired on the basis of their free will.

In regards to the requirement pertaining to comprehensible information, USAID/Mali
provided posters to health clinics to aid in complying with the comprehensible
information requirement, one of the methods recommended by USAID’s Global
Health/Office of Population and Reproductive Health (GH/PRH). The posters explain
various family planning methods and associated benefits and risks. Of the 16 health
clinics visited, only 7 had posters displayed in French, the official language of Mali. Two
clinics displayed the English version of the posters while another clinic displayed only a
different USAID-sponsored family planning-related poster describing secondary effects
of the oral contraceptive and injectible contraceptive methods. Five clinics did not
display any posters.

Even if posters were displayed, however, we questioned their effectiveness as a method
of disseminating comprehensible information in Mali unless they are being used by
service providers as a reminder or an aid. Approximately 81 percent of adults (mostly
women) in Mali are illiterate, and although all of the service providers interviewed spoke
French, the majority of the acceptors interviewed did not speak French, but only the local
language. Furthermore, many of the clinics that had posters did not display them in the
consultation room, but in the waiting area or the corridor.

Nevertheless, all of the acceptors interviewed stated that they were given
comprehensible information on the contraceptive method chosen, which in every case
included an explanation of health benefits and risks, including adverse side effects. We
found that the most common method used by service providers and community health
volunteers to communicate information about family planning methods to acceptors was
oral, using either a display of contraceptive products or a pictorial informational flip chart
which demonstrated how each contraceptive method is used, or both. Therefore, we
conclude that in Mali, showing acceptors displays of contraceptive products and using
the pictorial flip charts along with oral explanations are more effective methods for
providing comprehensible information than is displaying posters.




                                                                                            7
Photos of methods used in USAID/Mali’s family planning program to provide comprehensible
information to acceptors. On the left is a contraceptive product display used by service providers at
Population Services International’s (PSI) PROFAM clinics. On the right is a page from a pictorial
informational flip chart, provided by USAID/Mali, demonstrating the use of the Pill and used by
several service providers and community health volunteers. Photos were taken in Bamako by a
Regional Inspector General/Dakar auditor in February 2006.

In terms of the requirements related to denial of rights and experimental contraceptive
methods, all of the service providers interviewed stated that individuals were not denied
rights or benefits, or refused services at the clinics if they decided not to use the family
planning services. None of the service providers and community health volunteers
interviewed provided experimental contraceptive methods or were aware of any that
existed, and none of the acceptors interviewed were offered any experimental
contraceptive methods.

All of the acceptors interviewed declared that they chose their contraceptive method on
the basis of free will, indicating voluntarism, which is one of the guiding principles of
USAID’s assistance to family planning programs.


2. Has USAID/Mali communicated the Amendment’s
requirements to its family planning partners?
USAID/Mali has not effectively communicated the Tiahrt Amendment’s requirements to
its family planning partners. Although the Mission communicated the Tiahrt Amendment
requirements to its partners in semi-annual partner meetings and e-mail
correspondence, we found that not all of the partners’ staff understood all of the
requirements of Tiahrt. In addition, USAID/Mali did not notify partners of their Tiahrt
Amendment responsibilities by amending their agreements to include the required
“Voluntary Population Activities” provision when instructed by GH/PRH; nor did its
partners’ subagreements include the required provision.

In February 2006, GH/PRH informed USAID/Mali, through a conference call, of its
responsibilities in monitoring compliance with family planning legislative and policy
requirements, which included the Tiahrt Amendment. In March 2006, USAID/Mali held a
meeting with its partners to present the family planning compliance requirements,
including the Tiahrt Amendment. In September 2006, another meeting with partners
was held to present the compliance requirements again. All of the Mission’s family
planning partners, as well as representatives from the government, and civil society

                                                                                                   8
members were invited to attend these meetings. In these meetings, USAID/Mali used
the information provided by GH/PRH to inform its partners of these requirements. The
Mission also e-mailed the presentation and the minutes of the meetings to the partners
for future reference.

Health Team staff told us that they try to incorporate communicating and training on
Tiahrt Amendment requirements as other opportunities arise. For example, Tiahrt
Amendment requirements were incorporated into an orientation on USAID regulations
conducted by World Learning for its subpartners and another centrally funded partner in
March 2006. The Mission also forwarded guidance from GH/PRH to its bilateral and
centrally funded partners to help ensure compliance with family planning legislative and
policy requirements, specifically the Tiahrt Amendment, in relation to performance-based
financing initiatives.

Despite the communication and training, we found that not all of the partners’ staff fully
understood all of the requirements of the Tiahrt Amendment. In addition, the Mission did
not communicate Tiahrt Amendment requirements to its partners through amendments
to funding agreements to include the required Tiahrt provision, and it did not verify
whether its partners’ subagreements contained the required provision.


Partner Staff Need Better
Understanding of Tiahrt
Requirements

  Summary: Not all of USAID/Mali’s partners’ staff fully understood all five of the
  Tiahrt Amendment requirements and some partner field staff, service providers,
  and community health volunteers were not aware of Tiahrt Amendment
  requirements. USAID/Mali staff suggested that this may have been because some
  elements of the requirements are not commonly practiced in Mali, so partner staff
  may have minimized their significance. However, GH/PRH’s guidance emphasizes
  the importance of partners being aware of potential issues and being able to
  recognize vulnerabilities if they encounter them. If partners are not aware of or do
  not understand all of the Tiahrt requirements, they may be unable to conduct
  sufficient monitoring of their activities for compliance with the Tiahrt Amendment, or
  to identify potential or actual violations.

Although USAID/Mali communicated Tiahrt Amendment requirements to its partners
through semi-annual partner meetings and e-mail correspondence, we found that staff
from some partners did not understand all five of the Tiahrt Amendment requirements.
With regard to these requirements, the majority of partner staff interviewed mentioned
only the requirement of comprehensible information. In other situations, partner staff
confused the Mexico City Policy with the Tiahrt Amendment, and some partner staff did
not understand the requirements involving incentives and targets. Furthermore, some
partner staff at the field level, service providers, and community health volunteers were
unaware of the Tiahrt Amendment.

Specifically, staff from five of the seven partners interviewed at their main offices in
Bamako, did not appear to understand all of the Tiahrt requirements when queried on

                                                                                           9
their knowledge of the Amendment. The Tiahrt requirement that most partner staff
mentioned and were familiar with was that of comprehensible information. However,
none of the other Tiahrt requirements were brought up. We did not expect partner staff
to cite all five of the requirements, but when asked if they were aware of other Tiahrt
requirements, they most commonly mentioned abortion, which is not part of the Tiahrt
requirements. Apparently, partner staff were confusing the Tiahrt Amendment with the
Mexico City Policy, a U.S. government policy on abortion. Other Tiahrt requirements
related to denial of rights and experimental methods were not cited by any of the
partners’ staff.

In addition, in discussions of the other requirements with the partners, it was apparent
that some staff did not completely understand the requirements regarding incentives and
targets, or under which circumstances incentives and targets were prohibited by the
Tiahrt Amendment. For example, in one partner meeting, we were asked why one could
not have bonuses or incentives. In another partner meeting, we were asked to explain
the requirement pertaining to targets and quotas, and why they were not allowed.
Partner staff did not understand that some targets and quotas are permissible within
the context of what is stated in the Tiahrt Amendment.

In addition, several partner field staff were unaware of the Tiahrt Amendment. Only two
of the five partner staff interviewed in the field during our site visits knew of Tiahrt
requirements. The majority of the service providers and community health volunteers
(who have direct interaction with acceptors) also indicated they had never heard of the
Tiahrt Amendment. Specifically, 13 of the 16 service providers interviewed stated that
they had no knowledge of the Tiahrt Amendment, and of the 3 who were aware of the
Amendment, only 1 indicated having received training on the requirements. In addition,
none of the 11 community health volunteers interviewed indicated they had knowledge
of the Tiahrt Amendment.

According to Mission staff, one possible reason that partner staff did not fully grasp or
perhaps minimized the significance of four Tiahrt Amendment requirements was
because bonuses and incentives, targets and quotas, denial of rights, and experimental
methods are not “issues” or commonly known practices in Mali. Some partner staff and
Mission staff also asserted that because the practices are not common in Mali, violations
in these areas are highly unlikely. Mission staff also questioned to what extent they are
responsible for ensuring that partners fully understand the requirements, beyond fulfilling
their responsibility for providing communication and training on the requirements.

Although we took these concerns and comments into consideration, partners of family
planning programs cannot adequately implement or monitor compliance of the Tiahrt
Amendment and may be unable to identify potential or actual violations in its programs
without a clear understanding of all Tiahrt Amendment requirements. We also believe
that those working on the projects who have direct contact with acceptors, the service
providers and the community health volunteers, need to be aware of the requirements of
Tiahrt especially because they are the ones interacting with and delivering services to
acceptors.

During the training session in the conference call, GH/PRH emphasized the importance
of USAID and implementing partner staff being aware of potential issues and being able
to recognize vulnerabilities if encountered. In addition, an e-mail correspondence from
GH/PRH to USAID/Mali stated that missions should ensure that partner staff are

                                                                                        10
knowledgeable of the statutory and policy requirements relating to family planning
programs and are knowledgeable about areas of vulnerability. We are therefore making
the following recommendations:

   Recommendation No. 1: We recommend that USAID/Mali re-evaluate the
   effectiveness of its current training and presentation methods for partners and
   revise them, emphasizing the importance of all Tiahrt Amendment requirements.

   Recommendation No. 2: We recommend that USAID/Mali require its family
   planning partners to communicate Tiahrt Amendment requirements to their field
   staff and subpartners at all levels, and to service providers and community health
   volunteers.


Agreements Need to Include
Tiahrt Provision

  Summary: Although it received instructions from GH/PRH in February 2006 to
  amend partner agreements, USAID/Mali did not amend its partners’ agreements to
  include the provision containing Tiahrt Amendment requirements at that time. The
  Mission had intended to review and amend its partners’ agreements, but there was
  no follow-up to ensure these actions were taken. It was only when notified of this
  audit that the Mission made the amendments to the partners’ agreements.
  However, at the time of our audit, the Mission still had not verified whether its
  partners’ subagreements included the provision. The omission of the Tiahrt
  Amendment requirements in partner agreements and subagreements makes
  USAID/Mali’s enforcement of these requirements difficult if a violation is
  discovered.

USAID/Mali did not amend the agreements of its four bilateral partners to include the
“Voluntary Population Activities” provision which incorporates Tiahrt Amendment
requirements when instructed by GH/PRH in February 2006. However, after being
notified of this audit and before our fieldwork began, USAID/Mali did amend these four
agreements to include the required provision. Nevertheless, the Mission did not verify
that its bilateral partners’ subagreements included the “Voluntary Population Activities”
provision, and none of the subagreements between the bilateral partners and their
subpartners that we reviewed contained the required provision.

Contract Information Bulletin (CIB) 99-6, entitled Voluntary Family Planning – New
Provisions to Implement the Tiahrt Amendment, was issued by USAID on March 31,
1999, to implement the Tiahrt Amendment. The CIB mandated the inclusion of a new
contract clause and new standard provision on “Voluntary Population Activities”
incorporating the new requirements for voluntary family planning projects. The CIB
stated that this new provision must be included in its entirety in all new contracts, grants
and cooperative agreements involving any aspect of voluntary population activities. In
addition, it provided amendment language that must be included in existing family
planning contracts, grants and cooperative agreements. The CIB also stated that
recipients should insert this provision in all subawards and contracts involving family
planning or population activities that will be supported in whole or in part with funds
under the award.

                                                                                         11
In addition, USAID’s Guidance for Implementing the “Tiahrt” Requirements for Voluntary
Family Planning Projects states that USAID grants, contracts and cooperative
agreements for family planning projects containing the standard provision which makes
the population requirements (including the Tiahrt requirements) binding, should appear
in subagreements. Each subagreement will require the next level of intermediaries to
include the same population provision (with Tiahrt requirements), and so on.

Additionally, GH/PRH instructed missions during the conference call to verify that
agreements and subagreements contained the “Voluntary Population Activities”
provision. Missions were advised to review all implementation agreements for family
planning activities to ensure that the appropriate clauses were in place and that the effort
should be a collaborative one among health officers, contracts officers, and regional
legal advisors. In addition, missions were to make sure that their prime implementing
partners also reviewed their subagreements with local nongovernmental organizations
(NGOs).

Health Team staff indicated that they intended to review partner agreements to ensure
they contained the required provisions. After the conference call with GH/PRH, the
Health Team developed a strategy, indicating their plans to ensure compliance with the
Tiahrt Amendment. The strategy included immediately verifying that the agreements
contained the required clauses. However, there was no follow-up on these plans and
this action was never taken until notification of this audit. According to Health Team
staff, this was a case of something that “fell through the cracks.” Health Team staff also
commented that CIB 99-6 referred to FY 1999 Development Assistance funds, which
made it unclear as to whether it was still applicable. They also mentioned that
contracting officers did not even know about this required provision. Furthermore, they
also stated that ensuring that agreements have the proper provisions is not the
responsibility of the Health Team, but of the Contracting Office.

Despite the validity of some of these concerns, USAID/Mali was responsible for ensuring
its partners' agreements were amended to include the required “Voluntary Population
Activities” provision, and verifying that its partners’ subagreements contained the
required provision. Omission of the Tiahrt Amendment requirements in agreements for
voluntary family planning projects would make USAID/Mali’s enforcement of these
requirements among its implementing partners difficult if a violation is discovered.
Furthermore, if an implementing partner fails to include the Tiahrt Amendment
requirements in any of its subagreements, that lapse could amount to a breach of its
agreement with USAID.          Because USAID/Mali amended its bilateral partners’
agreements to include the Tiahrt Amendment provision before the end of our audit
fieldwork, we are not making a recommendation regarding those agreements. However,
USAID/Mali did not ensure that the provision was included in its bilateral partners’
subagreements, so we are making the following recommendation regarding the
subagreements of its bilateral partners.

   Recommendation No. 3: We recommend that USAID/Mali require its family
   planning partners to review, and amend if necessary, all subagreements that
   contain any aspect of voluntary family planning for inclusion of the current
   “Voluntary Population Activities” provision and obtain evidence from its partners
   that all of the relevant subagreements have been amended.


                                                                                         12
3. Has USAID/Mali, in response to the problems that arose in
Guatemala, implemented controls and procedures to improve
compliance?
USAID/Mali has not implemented controls and procedures to improve compliance with
the Tiahrt Amendment, in response to the problems that arose in Guatemala. Mission
staff did not become aware of the Guatemala violations until being notified of this audit,
through their own research. Health Team staff did not recall references to the specific
violation issues that arose in Guatemala in any communication, training, or guidance
received from GH/PRH.

As mentioned earlier, GH/PRH conducted a training session in a conference call in
February 2006 with USAID/Mali and other missions in Africa. The conference call
covered monitoring compliance with family planning legislative and policy requirements,
in which the Tiahrt Amendment was discussed among other family planning-related
requirements. However, the conference call training took place before the congressional
notification of the Guatemala violations in May 2006. In June 2006, GH/PRH sent an
e-mail to USAID/Mali and other missions to provide preliminary guidance on how certain
program initiatives could be implemented while still remaining in compliance with
statutory and policy requirements for family planning programs. Nonetheless, there
were no communications or guidance specifically informing USAID/Mali of the
Guatemala violations.

Although the conference call did not specifically reference Guatemala, through our
inquiries of Mission staff and our review of the conference call presentation and minutes,
we found that some of the same weaknesses found in Guatemala were addressed
during that conference call. They included communicating Tiahrt requirements to
partners on a regular basis and monitoring partners’ compliance with the Tiahrt
Amendment, including checking for and documenting Tiahrt compliance during site
visits.

As a result of the conference call with GH/PRH, USAID/Mali took steps to implement
controls and procedures for improving compliance with the Tiahrt Amendment. As
discussed previously, the Health Team developed a strategy for complying with the
Tiahrt Amendment. The strategy included disseminating compliance information to
partners every six months, conducting spot checks for field compliance during
monitoring visits, updating the site visit checklist to include Tiahrt compliance items, and
verifying that agreements contained the required Tiahrt provision.              In addition,
USAID/Mali requested its bilateral partners to document their implementation and
compliance of the Tiahrt Amendment within their family planning programs.

Although USAID/Mali had intended to take these planned actions, the Mission did not
fully or sufficiently carry them out. As a result, further improvements are needed in the
Mission’s efforts to monitor Tiahrt compliance such as expanding the site visit checklist
and conducting more site visits to partners.




                                                                                         13
Monitoring of Tiahrt Compliance
Needs Improvement

  Summary: Although USAID/Mali updated its site visit checklist to include checking for
  some elements of Tiahrt Amendment compliance, the revised checklist did not
  incorporate effective monitoring for all of the Tiahrt Amendment requirements.
  According to Mission staff, the Health Team staff incorporated elements that they
  thought should be included on the site visit checklist without specific direction from
  GH/PRH. In addition, site visits to monitor field activities were not conducted for all of
  the Mission’s family planning partners in FY 2006 because of lack of time due to other
  competing priorities. USAID guidance and USAID/Mali’s Mission Order emphasize
  the importance of site visits and GH/PRH stressed that missions should conduct
  monitoring of Tiahrt compliance through field monitoring visits. Without timely and
  effective site visits the Mission cannot be fully assured that program activities are
  being carried out in compliance with the Tiahrt Amendment.

In February 2006, GH/PRH advised missions to perform their own monitoring of Tiahrt
compliance during field visits and stated that documentation of field visits should include
the questions that were asked and the related responses, as well as any relevant
observations. Accordingly, the Health Team at USAID/Mali updated its site visit
checklist to incorporate checking for Tiahrt compliance and indicated through a
memorandum to the Mission’s Program Office that they would conduct field monitoring
visits using the new checklist during the next round of field visits.

The revised checklist included a new Tiahrt compliance section containing four
questions, but the questions did not cover verifying compliance with all Tiahrt
requirements, and the requirements that were covered were not adequately covered.
For example, the checklist contained a question that addressed the requirements
regarding quotas and bonuses, but did not include questions addressing the
requirements for denial of rights or experimental methods. Although one of the
questions was to confirm whether a wall chart was visibly displayed at the health clinic
visited (one of the methods recommended by GH/PRH to aid in complying with the
requirement for comprehensible information), additional steps were needed for full
verification of compliance with this requirement. For example, during site visits and
interviews with service providers and acceptors, we found that posters were not the
primary or most effective method used to communicate comprehensible information to
acceptors, so additional questions about this requirement would be more useful for
assessing compliance. (See pages 7-8 for a discussion of the comprehensible
information requirement in Mali.) In addition, the checklist did not include questions for
interviewing acceptors during site visits, which would be a key step in determining
compliance with Tiahrt requirements and for detecting vulnerabilities at the service
delivery point. Interviewing acceptors provides first-hand knowledge in determining
whether services are rendered to acceptors in conformity with Tiahrt Amendment
requirements. Therefore, the site visit checklist can be revised to improve monitoring for
Tiahrt compliance.

According to Health Team staff, GH/PRH did not provide guidance on the specific
questions to ask or steps to take during site visits to fully monitor compliance with the

                                                                                               14
Tiahrt requirements. GH/PRH indicated that since each program is different, each
mission should have the flexibility to construct its own tools that best capture information
for their own program. In the absence of such guidance, the Health Team developed
their own questions incorporating the elements they thought should be included in the
site visit checklist. Nevertheless, the questions were not comprehensive enough.

The Health Team also did not conduct site visits to monitor field activities for all of its
family planning partners in FY 2006. Five of six family planning partners1 executing
activities in the field were fully operational during FY 2006. However, the Health Team
conducted site visits to monitor family planning field activities for only three of these five
partners. The other trips were conducted for purposes other than field activity
monitoring such as attending workshops and meetings and conducting data quality
assessments, most of which were for other health-related activities. The Team Leader
noted that the team would like to get out to the field more often but is hampered because
of competing priorities.

Only two of the three site visits previously mentioned included monitoring for Tiahrt
Amendment requirements. These two visits were documented on site visit checklists,
and included some Tiahrt compliance monitoring. Only one trip was documented using
the updated site visit checklist with the four new questions on Tiahrt compliance. For the
other site visit, a different version of the revised checklist was used. That version
contained a section on Tiahrt compliance, but there were no detailed questions or steps,
only space for the team member to describe what was verified. Our review of this
checklist showed that the team member checked only for the comprehensible
information requirement, determining if a poster was visible, and how the poster was
used by the health clinic. The other Tiahrt requirements were not documented as being
verified.

Automated Directives System (ADS) 303.3.17(b) emphasizes that site visits are an
important part of an effective award management, because they usually allow a more
effective review of the project. In addition, USAID/Mali has a Mission Order in effect,
titled USAID Mali Framework and Procedures for Monitoring and Evaluation
Programmatic Performance, which encourages Strategic Objective teams to undertake
activity monitoring field visits as frequently as possible, averaging no less than two
monitoring field visits per month.

Although USAID/Mali’s revision and subsequent use of the revised site visit checklists
permitted verification and documentation of some Tiahrt compliance, further revisions
would strengthen the checklists.     Timely and effective site visits are essential for
ensuring proper project implementation and compliance. Otherwise the Mission cannot
be fully assured that program activities are being carried out in compliance with the
Tiahrt Amendment. Conducting two site visits a month may be ambitious for the Health
Team, but more frequent site visits that include and document Tiahrt Amendment
compliance monitoring could be made.            We therefore make the following
recommendations:



1
 In the Background section World Learning was ‘counted’ as one partner. For the purpose of this
discussion, we are considering each of the two local subpartners funded by World Learning
(ASDAP and Groupe Pivot) separately because they were individually monitored by the Mission.

                                                                                            15
   Recommendation No. 4: We recommend that USAID/Mali revise its site visit
   checklist to incorporate verification of compliance with all Tiahrt Amendment
   requirements and require all Health Team members to use the revised checklist
   during site visits.

   Recommendation No. 5: We recommend that USAID/Mali create a schedule of
   site visits to be conducted of each partner implementing family planning activities
   in the field so that each partner’s project is visited and monitored for Tiahrt
   Amendment compliance at least once a year.


4. Has USAID/Mali implemented procedures to investigate,
remedy, and report violations?
USAID/Mali has not implemented procedures to investigate, remedy, and report Tiahrt
Amendment violations.

Procedures for Reporting
Violations Need to Be
Implemented

  Summary: In House Report 109-486, the House Appropriations Committee
  directed USAID to investigate and remedy violations and to ensure that all violations
  are reported in a timely fashion. However, USAID/Mali has not developed procedures
  to this effect, because it had not been directed by GH/PRH to do so. Without
  procedures in place, the Mission may not take appropriate action as required to
  investigate, remedy, and report a violation if one were to occur.

The Tiahrt Amendment requires that no later than 60 days after the date on which the
USAID Administrator determines that a single violation of requirements 1, 2, 3, or 5 has
occurred, or, in the case of requirement 4, a pattern or practice of violations has
occurred, (as described on page 3) the Administrator must submit to Congress a report
containing a description of such violation and the corrective action taken by the Agency.

The violations in Guatemala were discovered by USAID/Guatemala in June 2005, and
although the Mission acted immediately to remedy the situation, it took the Mission nine
months to notify USAID/Washington of the violations. Even though USAID/Washington
notified Congress within the appropriate timeframe of 60 days of its determination of the
violations, Congress was not notified of the violations in Guatemala until May 2006.

In House Report 109-486 – Foreign Operations, Export Financing, and Related Program
Appropriations Bill, 2007, the House Appropriations Committee directed USAID and its
Missions to investigate and remedy its violations with dispatch and to ensure all
violations are reported in a timely manner. House Report 109-486 also directed, among
other things, that USAID ensure that requirements related to family planning are
communicated explicitly to all implementing partners and that violations are quickly
investigated, remedied, and communicated to both Agency officials and Congress.
However, USAID/Mali has not developed or communicated procedures to investigate,


                                                                                          16
remedy, and report Tiahrt Amendment violations because USAID/Mali was not notified
by GH/PRH that they should do so.

The training by conference call conducted by GH/PRH in February 2006, which covered
the Tiahrt Amendment, took place before the congressional notification of the Guatemala
violations. However, as mentioned earlier, there was no communication or guidance
informing USAID/Mali of the Guatemala violations or directing the Mission to develop
procedures to investigate, remedy, and report Tiahrt Amendment violations.

We also found that USAID/Mali’s partners did not have procedures to investigate,
remedy, and report Tiahrt Amendment violations. During our interviews, partners gave a
variety of responses on what they would do if a violation occurred. For example, only
one partner mentioned they would contact the Mission and develop a plan of resolution if
a violation was discovered. One partner mentioned that they are required to contact
MOH of any infractions to MOH’s Policies, Norms, and Procedures on Reproductive
Health, which includes family planning, but the policies do not cover most of the
requirements of Tiahrt. Another partner said that they would first review their contract to
determine how to proceed.

Although USAID/Mali did not have procedures in place to investigate, remedy, and
report Tiahrt Amendment violations and had not communicated any procedures to its
partners, Mission staff knew that they were required to report any violations discovered
to GH/PRH, according to guidance they had read on the Internet. Nevertheless, it is
important that the Mission develop procedures and communicate them to its partners.
Otherwise timely investigation, remedy, and reporting of Tiahrt Amendment violations
may not occur. We therefore make the following recommendation:

   Recommendation No. 6: We recommend that USAID/Mali develop procedures to
   investigate, remedy, and report Tiahrt Amendment violations and communicate
   these procedures to its family planning partners.




                                                                                        17
EVALUATION OF
MANAGEMENT COMMENTS
USAID/Mali provided detailed comments in response to our draft audit report, which are
included in their entirety (without attachments) in Appendix II. The Mission also attached
comments from USAID’s Bureau for Global Health (GH) and Office of General Counsel
which were considered in finalizing this report.

USAID/Mali accepted all of the recommendations in the draft audit report. Based on
appropriate final actions taken by the Mission, the recommendations are considered
closed upon issuance of this report.

Several of the recommendations focused on improvements needed in the
documentation and dissemination of Mission requirements regarding Tiahrt compliance
and monitoring. In response to the recommendations, USAID/Mali developed a Mission
Order to provide internal guidance to Mission personnel. The order contains detailed
procedures for monitoring and reporting on Tiahrt Amendment compliance, and was
provided to Mission staff on June 28, 2007. The Mission Order also includes an external
set of Compliance Guidelines for Partners which was sent to family planning partners on
the same day.

Recommendation No. 1 recommends that USAID/Mali re-evaluate the effectiveness of
its current training and presentation methods for partners and revise them, emphasizing
the importance of all Tiahrt Amendment requirements. USAID/Mali concurred with this
recommendation and took action as recommended. USAID/Mali reviewed its training
materials and made revisions to emphasize the importance of all Tiahrt Amendment
requirements. The revisions were based on the updated training materials sent from GH
in March and May 2007. The revised training materials and guidance on their use were
provided to partners as part of the Mission’s Compliance Guidelines for Partners.

Recommendation No. 2 recommends that USAID/Mali require its family planning
partners to communicate Tiahrt Amendment requirements to their field staff and
subpartners at all levels, and to service providers and community health volunteers. The
Mission agreed with and has taken action on this recommendation. The Mission’s
Compliance Guidelines for Partners requires family planning partners to provide
communication and training on Tiahrt Amendment requirements at least once a year to
their staff at all levels, including community volunteers, and stipulates that partners
document all training efforts and include this information as a part of their semester
reports to USAID. The Mission also provided model training presentations in conjunction
with the guidance. We noted that the guidelines do not specifically mention subpartners
or service providers, however, the new Mission Order requires Cognizant Technical
Officers to ensure that family planning partners include annual family planning
compliance training for their service providers, agents, staff and volunteers in their
compliance monitoring plans.         In addition, USAID/Mali’s e-mail to the partners
introducing the new guidance included service providers among those to be trained.

Recommendation No. 3 recommends that USAID/Mali require its family planning



                                                                                       18
partners to review, and amend if necessary, all subagreements that contain any aspect
of voluntary family planning for inclusion of the current “Voluntary Population Activities”
provision and obtain evidence from its partners that all of the relevant subagreements
have been amended. The Mission concurred with this recommendation and took action
as recommended. USAID/Mali contacted all of its bilateral family planning partners and
requested them to review, and amend where appropriate, all subagreements that
contain any aspect of voluntary family planning for inclusion of the current “Voluntary
Population Activities” provision. USAID/Mali obtained confirmation from the applicable
partners attesting that their relevant subagreements had been amended.

Recommendation No. 4 recommends that USAID/Mali revise its site visit checklist to
incorporate verification of compliance with all Tiahrt Amendment requirements and
require all Health Team members to use the revised checklist during site visits. The
Mission concurred with and has taken action to address this recommendation.
USAID/Mali revised its site visit checklist to include additional elements of compliance
with the Tiahrt Amendment and the new Mission Order requires all Health Team
members to use the checklist during site visits. We acknowledge that the revised site
visit checklist is more comprehensive than the previous version, however, we noted that
it does not include steps for monitoring compliance of the denial of rights Tiahrt
Amendment requirement. We encourage the Mission to incorporate this information in
its next revision of the checklist.

Recommendation No. 5 recommends that USAID/Mali create a schedule of site visits to
be conducted of each partner implementing family planning activities in the field so that
each partner’s project is visited and monitored for Tiahrt Amendment compliance at least
once a year. The Mission concurred with this recommendation and took action as
recommended. In the new Mission Order, USAID/Mali included the requirement to
establish an annual site visit schedule for the monitoring of family planning partners’
compliance with the Tiahrt Amendment. The Mission Order also stipulated that at least
one site visit per year is to be conducted for all partners conducting family planning
activities in the field. USAID/Mali also indicated that it is in the process of amending the
2007 work objectives of its Health Team members to include compliance monitoring field
visits. The Mission also provided a schedule of visits to be conducted for the remainder
of fiscal year (FY) 2007.

Recommendation No. 6 recommends that USAID/Mali develop procedures to
investigate, remedy, and report Tiahrt Amendment violations and communicate these
procedures to its family planning partners.      The Mission concurred with this
recommendation and took action as recommended. USAID/Mali has developed
procedures to investigate, remedy, and report Tiahrt Amendment violations based on
guidance provided by USAID/Washington and incorporated them into the new Mission
Order. The Compliance Guidelines for Partners also specifically details the procedures
to follow in case of suspected violations.

USAID/Mali also provided comments related to specific issues in the draft report.
USAID/Mali stated that there were inconsistencies in the report that merit correction
concerning the number of family planning partners supported by the Mission. After
further communication with the Mission, they agreed with our statement and we made no
changes regarding the number of family planning partners (11) supported by the Mission
in FY 2006. We have also inserted a footnote on page 15 to clarify when we consider
two subpartners separately in our count of partners.

                                                                                         19
USAID/Mali also believed that further clarification was necessary concerning the number
and type of field visits made by the Health Team to monitor partner activities during the
course of FY 2006. Upon receiving documentation to support a field activity monitoring
site visit to a third family planning partner, we revised the number of partners visited from
two to three in our discussion on page 15. However, based on the documentation
provided, the Mission staff did not conduct any monitoring for Tiahrt Amendment
compliance and we made no changes to that portion of the discussion.




                                                                                          20
                                                                            APPENDIX I 




SCOPE AND METHODOLOGY

Scope
In response to the discovery of noncompliance with the Tiahrt Amendment in
Guatemala, and in order to be responsive to congressional interest in the matter, the
Office of Inspector General is conducting an audit to assess USAID missions’
effectiveness in complying with Tiahrt Amendment family planning requirements. To
support this effort, the Regional Inspector General/Dakar conducted this audit as a part
of a multicountry audit to determine if USAID/Mali has effectively implemented controls
and procedures to ensure that USAID/Mali and its implementing partners are complying
with the Tiahrt Amendment requirements. The Regional Inspector General/Dakar
conducted this audit in accordance with generally accepted government auditing
standards.

In planning and performing the audit, we reviewed and assessed USAID/Mali’s controls
in complying with Tiahrt Amendment requirements. We identified management controls
to be the Mission’s Federal Manager’s Financial Integrity Act Report for fiscal year (FY)
2006, Mission policies and procedures, monitoring plans, site visits conducted by
Mission staff, and communications with partners. The audit involved interviews with
USAID/Mali and family planning partners’ staff, reviews of USAID/Mali’s and its family
planning partners’ records, site visits, and interviews with service providers, community
health volunteers, and acceptors.

The scope of the audit encompassed USAID/Mali’s family planning activities during FY
2006, which were implemented by 11 partners comprised of 4 bilateral partners and 7
centrally funded partners. Five of the 11 partners provided direct family planning
services and were selected for our review. They included three bilateral partners--Care,
Population Services International (PSI), and the Ministry of Health (MOH)--and two
centrally funded partners--World Learning (implemented through two local
nongovernmental organizations, Groupe Pivot/Santé Population and Association de
Soutien du Développement des Activités de Population (ASDAP)), and Save the
Children. In FY 2006, USAID/Mali programmed $7.5 million in funding for the three
bilateral partners we reviewed, which included $2.9 million for population-related
activities. In addition, USAID/Mali contributed $240,000 in funding to the two centrally
funded partners included in our review.

Fieldwork for the audit was conducted from January 22 to February 14, 2007 at
USAID/Mali and implementing partners’ offices in Bamako. Site visits were conducted at
health clinics in Bamako and the regions of Ségou and Mopti, and villages in Ségou and
Mopti.


Methodology
The overall approach used to answer the audit objective was to answer the following
four supporting questions:




                                                                                      21
                                                                            APPENDIX I 



   1. 	 Have USAID/Mali or its partners violated the Amendment?

   2. 	 Has USAID/Mali communicated the Amendment’s requirements to its family
        planning partners?

   3. 	 Has USAID/Mali, in response to the problems that arose in Guatemala, 

        implemented controls and procedures to improve compliance? 


   4. 	 Has USAID/Mali implemented procedures to investigate, remedy, and report
        violations?

To answer the audit objective, we obtained an understanding of Tiahrt Amendment
requirements and USAID/Mali’s family planning program by reviewing applicable laws,
regulations, guidance, and program documents. In addition, we reviewed prior Tiahrt
Amendment audits and took part in a training session conducted by USAID’s Global
Health/Office of Population and Reproductive Health (GH/PRH) and Office of the
General Counsel covering Tiahrt Amendment requirements.

At the Mission level, we interviewed USAID/Mali staff about their family planning
activities and the Mission’s compliance with the Tiahrt Amendment. We reviewed the
funding agreements between USAID/Mali and its partners.               We reviewed
communications and training materials from USAID/Washington sent to USAID/Mali, and
communications and training materials that USAID/Mali sent to its partners. We also
reviewed documented site visits conducted by Mission staff.

At the partner level, we interviewed family planning partner staff about their family
planning activities and their compliance with the Tiahrt Amendment in their family
planning programs. We reviewed subagreements between the partners and their
subpartners. We reviewed employee contracts and financial data to determine if
bonuses or other incentive compensation were paid. We reviewed communications and
training materials that partners had received from USAID/Mali. We also queried partners
on their knowledge of Tiahrt Amendment requirements.

We judgmentally selected a sample of sites for testing. We visited 22 sites, which
included 16 health clinics in Bamako and in the regions of Ségou and Mopti, and in 6
villages in Ségou and Mopti. During our site visits, we interviewed 16 service providers,
11 community health volunteers, and 22 acceptors by using standard questions
developed to ensure consistency in the subjects covered. The questions were designed
to determine if Tiahrt Amendment requirements were violated, and if decisions made by
clients were voluntary. We also determined whether service providers and community
health volunteers had received training and guidance on the requirements of the Tiahrt
Amendment.




                                                                                      22
                                                                             APPENDIX II 




MANAGEMENT COMMENTS



MANAGEMENT COMMENTS

To:            Nancy Toolan, Regional Inspector General

From:          Alex Newton, Mission Director, USAID/Mali /s/

Subject:       Comments on draft audit report of Tiahrt compliance and
               monitoring by USAID/Mali

Date:          June 29, 2007

The USAID/Mali Mission wishes to thank RIG/Dakar for the opportunity to review the
draft audit report and provide commentary regarding its findings and recommendations.
The overall nature of the RIG audit and the ensuing report is comprehensive and we
appreciate the thoroughness with which RIG addressed the question of Mission
monitoring and compliance. The comments provided here are made in the hope that
additional complementary details and input will further enhance the quality of the audit
findings and document the Mission’s response to its recommendations.

In addition, USAID/Mali wishes to thank the USAID Bureau for Global Health for its
recent support and input including the sharing of a variety of tools and guidelines
collected by USAID/GH and the provision of technical assistance in the form of a TDY
visit by Bureau of Global Health FSO Jeannie Friedman in June 2007. Finally,
USAID/Mali wishes to note that it has reviewed and is in agreement with the attached
audit report comments from USAID/GH (separate .pdf file).

General comments:

While on the whole the USAID/RIG/Dakar audit report is comprehensive and accurate in
its findings, several inconsistencies in the report merit correction concerning the number
of family planning partners supported by USAID in Mali. The report states on p.3 that
“USAID/Mali’s family planning program is implemented by 11 partners – 4 bilateral, 7
centrally funded and that 5 of these partners directly provide family planning services.”
However the report states on p.14 of the same document that “Five of the six family
planning partners executing activities in the field were fully operational during FY06.” In
fact, ten (not eleven) total partners received FY06 funding for family planning related
activities, five of which provided direct family planning services in FY06; inconsistency


                                                                                        23
                                                                                APPENDIX II


in counting family planning partners may come from the fact that the GSM/Flex Fund
implementing mechanism funds two local NGOs that both implement family planning
activities.

The Mission also believes that further clarification is necessary concerning the number
and type of field visits made by the USAID Health Team to monitor partner activities
during the course of FY06. On p.14 of the draft audit report, the auditors state that, “five
of the six family planning partners executing activities in the field were fully operational
during FY06. However, the Health Team conducted site visits for only two of these five
partners which included family planning field activities.” In fact, of the five family
planning partners operational in the field in FY06, the Health Team documented visits to
four of the five (See Annex 1); and while family planning activities were reviewed during
each of these visits, Tiahrt compliance was not specifically documented for each visit
since the Mission’s field visit checklist was only revised in April 2006, more than half
way through the fiscal year. In addition, confusion around the number of family planning
partners visited may come from the fact that three of the family planning partners with
activities in the field (Keneya Ciwara, Save the Children and ASDAP) work through
Ministry of Health clinics, so a field visit to any of these projects also necessarily entailed
a visit to a Ministry of Health clinic. The Mission acknowledges that the private
providers supported through the Pathways to Health Project were not visited during FY06
and accepts the need to ensure that all partners are visited at least once annually in the
future.

Finally, USAID/Mali’s family planning program is relatively complex, as the number of
different bilateral and centrally-funded family planning partners active in Mali attests.
The audit of the Mission’s monitoring of compliance with the Tiahrt Amendment has
provided a good opportunity for increased dialogue between the Mission and USAID/GH
around the coordination and monitoring of the various ongoing activities including
compliance with the Tiahrt Amendment requirements. The Mission wishes to take this
opportunity to emphasize the importance of this coordination in order to ensure
appropriate monitoring and to suggest that further discussion is warranted to better clarify
roles and responsibilities around centrally-funded activities taking place in countries
where a bilateral mission is present.

Comments on recommendations:

We accept all of the recommendations contained within the draft report and, on the basis
of the implementation of management corrective actions taken, request that they be
closed upon issuance of the Audit Report. Documentation for each of the actions taken to
implement the recommendations needed to strengthen the control environment has been
provided to the RIG and accompanies this memorandum.

Several of the recommendations called for in the draft audit report requested improved
documentation and dissemination of Mission requirements regarding Tiahrt compliance
and monitoring. It was judged by the Mission that the most appropriate and
comprehensive manner to document and disseminate this information would be to


                                                                                            24
                                                                                  APPENDIX II 



   develop a Mission Order intended to provide internal guidance to Mission personnel as
   well as an external set of guidelines intended for family planning partners. The resulting
   documents are included as Annexes 2 and 3 respectively to this memorandum. Please
   note: the USAID/Mali Mission Order on Procedures for Monitoring Tiahrt Amendment
   and Mexico City Policy (MCP) Compliance and Reporting was disseminated to all
   Mission personnel on June 28, 2007; the USAID/Mali Mission Compliance Guidelines for
   Partners were disseminated to all USAID/Mali partners receiving funding for family
   planning activities (both bilaterally and centrally managed) on June 28, 2007.

   Comments on each of the recommendations and the actions taken follow:

   Recommendation No. 1: We recommend that USAID/Mali re-evaluate the effectiveness
   of its current training and presentation methods for partners and revise them,
   emphasizing the importance of all Tiahrt Amendment requirements.

   USAID/Mali has reviewed its training materials and revised them to emphasize the
   importance of all Tiahrt Amendment requirements; the revision of these materials was
   based on the recently released updated training materials sent from USAID/GH in March
   and May, 2007. In addition, the following training-related actions (all included in the
   Mission MO on Compliance) have been implemented:

   For Mission staff:
•	 All USAID/Mali Health Team members completed the new online family planning
   compliance training developed by USAID/GH by the centrally determined deadline of
   June 29, 2007.
•	 The requirement to complete compliance training on a yearly basis is included in the
   Mission Order on Compliance and is currently being added to Health Team members’
   work objectives during the mid-term review process which is in process.
•	 The Mission will provide training to its partners on FP/RH compliance at least once a
   year and will provide partners with new or additional training materials as they become
   available.

   For partners:
•	 Revised training materials and guidance on their use were provided to partners on June
   28, 2007 as part of the USAID/Mali Mission Compliance Guidelines for Partners
   developed in response to this audit (See Annex 8 for the two model training
   presentations).
•	 Partners are now required to train their staff, subpartners, and field staff including service
   providers and community based volunteers at least once a year in comprehensive FP/RH
   compliance and to document their training efforts in their overall project semester
   reports.

   Recommendation No. 2: We recommend that USAID/Mali require all its family
   planning partners to communicate Tiahrt Amendment requirements to their field staff and
   subpartners on all levels, and to service providers and community health volunteers.


                                                                                              25
                                                                             APPENDIX II


Tiahrt Amendment compliance requirements are included in the USAID/Mali Mission
Compliance Guidelines for Partners developed in response to this audit and provided to
partners on June 28, 2007. The guidelines specifically require family planning partners to
communicate these requirements to their subpartners on all levels, including service
providers and community health volunteers. Also, as noted above, partners are required
to train their decentralized staff, subpartners and service providers on an annual basis in
FP/RH requirement compliance. The Guidelines further stipulate that all family planning
partners will report on Tiahrt compliance-related communications with and training of
project staff, subpartners, service providers, and community health volunteers in their
overall project semester reports submitted to the Mission.

These requirements are also included in the USAID/Mali Mission Order on Compliance
cited in the general comments section of this memorandum.

Recommendation No. 3: We recommend that USAID/Mali require its family planning
partners to review, and amend if necessary, all subagreements that contain any aspect of
voluntary family planning for inclusion of the current “Voluntary Population Activities”
provision and obtain evidence from its partners that all of the relevant subagreements
have been amended.

USAID/Mali has required all of its bilateral partners involved in population activities to
review, and amend where appropriate, all subagreements that contain any aspect of
voluntary family planning for inclusion of the current “Voluntary Population Activities”
provision. USAID/Mali has obtained evidence from all relevant bilateral partners (PSI,
Keneya Ciwara and ATN) attesting that their relevant subagreements have been amended
(See Annex 4).

USAID/Mali has also communicated with USAID/GH to inform them of this
recommendation and they have provided us with evidence that all centrally funded family
planning projects with field activities in Mali (Flex Fund partners: ASDAP, Groupe Pivot
and Save the Children) include the relevant provisions (See Annex 5).

Recommendation No. 4: We recommend that USAID/Mali revise its site visit checklist
to incorporate verification of compliance with all Tiahrt Amendment requirements and
require all Health Team Members to use the checklist during site visits.

USAID/Mali has revised its site checklist to include all elements of compliance with the
Tiahrt Amendment and has required that all Health Team Members use the checklist
during site visits. The revised checklist and the requirement to use it are incorporated in
the USAID/Mali Mission Order on Compliance cited in the general comments section of
this memorandum (See Annex 7 for the revised checklist).

Recommendation No. 5: We recommend that USAID/Mali create a schedule of site
visits to be conducted of each partner implementing family planning activities in the field
so that each partner’s project is visited and monitored for Tiahrt compliance at least
once a year.


                                                                                        26
                                                                         APPENDIX II


USAID/Mali has included the requirement to establish a field visit schedule for the
monitoring of family planning partners’ compliance with the Tiahrt Amendment in its
Mission Order on Compliance. As stated in the MO, the schedule will be established on
an annual basis (See Annex 6 for the 2007 compliance field visit schedule). Compliance
field visits will also be included in Health Team members’ work objectives (In process:
USAID/Mali Health Team members’ 2007 work objectives are being amended as part of
the mid-term review process to include compliance monitoring field visits for the 2007
calendar year).

Recommendation No. 6: We recommend that USAID/Mali develop procedures to
investigate, remedy, and report Tiahrt Amendment violations and communicate these
procedures to family planning partners.

USAID/Mali has developed procedures to investigate, remedy, and report Tiahrt
Amendment violations based on guidance provided by USAID/Washington following a
request from the Mission made in the context of this compliance audit. These procedures
are included in the Mission Order on Compliance as well as in the USAID/Mali Mission
Compliance Guidelines for Partners.




List of Attachments

Annex 1: FY2006 Field Trips Table
Annex 2: USAID/Mali Mission Order on Procedures for Monitoring Tiahrt Amendment
and Mexico City Policy Compliance and Reporting
Annex 3: USAID/Mali Mission Compliance Guidelines for Partners
Annex 4: Evidence from bilateral partners of amended subagreements
Annex 5: Evidence from USAID/GH of amended partner subagreements
Annex 6: USAID/Mali Health Team 2007 compliance monitoring field visit schedule
Annex 7: Revised Compliance Monitoring Field Visit Checklist
Annex 8: Model training presentations
USAID/GH audit report comments (separate .pdf file)




                                                                                    27
U.S. Agency for International Development 

        Office of Inspector General 

        1300 Pennsylvania Ave, NW 

          Washington, DC 20523 

            Tel: (202) 712-1150 

            Fax: (202) 216-3047 

            www.usaid.gov/oig
